No._______
IN THE

Supreme Court of the United States
BRANDON KENDALE DUDLEY,

Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.
On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Fourth Circuit
APPENDIX
W. MICHAEL DOWLING
Counsel of Record

THE DOWLING FIRM PLLC
P.O. BOX 27843

Raleigh, N.C. 27611
(919) 529-3351
mike@dowlingfirm.com
June 9, 2021

Appendix:
Opinion of the United States Court of Appeals for the Fourth Circuit,
filed 2/5/21 .................................................................................................................... A1

USCA4 Appeal: 20-4143

Doc: 38

Filed: 02/05/2021

Pg: 1 of 6

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-4143

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
BRANDON KENDALE DUDLEY,
Defendant - Appellant.

Appeal from the United States District Court for the Eastern District of North Carolina, at
Wilmington. Terrence W. Boyle, District Judge. (7:18-cr-00182-BO-1)

Submitted: December 31, 2020

Decided: February 5, 2021

Before MOTZ and QUATTLEBAUM, Circuit Judges, and TRAXLER, Senior Circuit
Judge.

Affirmed by unpublished per curiam opinion.

W. Michael Dowling, BROOKS, PIERCE, MCLENDON, HUMPHREY & LEONARD,
Raleigh, North Carolina, for Appellant. Robert J. Higdon, Jr., United States Attorney,
Jennifer P. May-Parker, Assistant United States Attorney, Banumathi Rangarajan,
Assistant United States Attorney, OFFICE OF THE UNITED STATES ATTORNEY,
Raleigh, North Carolina, for Appellee.

Unpublished opinions are not binding precedent in this circuit.

A1

USCA4 Appeal: 20-4143

Doc: 38

Filed: 02/05/2021

Pg: 2 of 6

PER CURIAM:
Brandon Kendale Dudley appeals his conviction following a jury trial for various
drug offenses, including distribution and possession with intent to distribute 50 grams or
more of methamphetamine and aiding and abetting, in violation of 18 U.S.C. § 2 and 21
U.S.C. § 841(a)(1), (b)(1)(A). The district court imposed a sentence of 360 months’
imprisonment, which was below the advisory Sentencing Guidelines range. On appeal,
Dudley argues that (1) the evidence at trial was insufficient to support his conviction on
the above count, (2) the district court clearly erred in calculating the drug quantity
attributable to him at sentencing, and (3) his sentence is procedurally unreasonable because
the district court failed to provide an individualized explanation for the chosen sentence.
We affirm.
Dudley argues that insufficient evidence supports his conviction for distribution and
possession with intent to distribute 50 grams or more of methamphetamine because the lab
report demonstrated that the substance tested contained less than 50 grams of
methamphetamine. We review de novo the denial of a motion for judgment of acquittal.
United States v. Zelaya, 908 F.3d 920, 925 (4th Cir. 2018). When a defendant challenges
the sufficiency of the evidence to support a jury verdict, we view the evidence in the light
most favorable to the Government and will sustain the verdict if it is supported by
substantial evidence. United States v. Savage, 885 F.3d 212, 219 (4th Cir. 2018). Giving
the Government the benefit of all reasonable inferences, including the margin of error and
confidence level described in the lab report, the jury could reasonably have found that the

2

A2

USCA4 Appeal: 20-4143

Doc: 38

Filed: 02/05/2021

Pg: 3 of 6

substance contained at least 50 grams of methamphetamine. We therefore conclude that
sufficient evidence supports Dudley’s conviction.
Next, Dudley challenges the district court’s drug weight finding. “We review the
district court’s calculation of the quantity of drugs attributable to a defendant for sentencing
purposes for clear error. In so doing, we afford great deference to a district judge’s
credibility determinations and how the court may choose to weigh the evidence.” United
States v. Williamson, 953 F.3d 264, 272-73 (4th Cir. 2020) (internal quotation marks and
citation omitted). In addition, a court imposing sentence may “consider any relevant
information before it, including uncorroborated hearsay, provided that the information has
sufficient indicia of reliability to support its accuracy.” United States v. Mondragon, 860
F.3d 227, 233 (4th Cir. 2017) (internal quotation marks omitted). We discern no basis for
disturbing the court’s drug weight finding, which was largely based on a credibility
determination to which we afford great deference.
Finally, Dudley argues that his sentence is procedurally unreasonable because the
district court did not explicitly respond to his sentencing arguments. The Government
contends that this claim is reviewed for plain error, and that Dudley fails to demonstrate
any plain error affecting his substantial rights. “A district court is required to provide ‘an
individualized assessment’ based on the facts before the court, and to explain adequately
the sentence imposed ‘to allow for meaningful appellate review and to promote the
perception of fair sentencing.’” United States v. Lewis, 958 F.3d 240, 243 (4th Cir. 2020)
(quoting Gall v. United States, 552 U.S. 38, 50 (2007)). “When a defendant presents
non-frivolous reasons for imposing a different sentence, the district court must address or
3

A3

USCA4 Appeal: 20-4143

Doc: 38

Filed: 02/05/2021

Pg: 4 of 6

consider them and explain why it has rejected them.” United States v. Lozano, 962 F.3d
773, 782 (4th Cir. 2020) (internal quotation marks omitted).
“The adequacy of the sentencing court’s explanation depends on the complexity of
each case.” United States v. Blue, 877 F.3d 513, 518 (4th Cir. 2017). “[O]ur review of a
district court’s sentencing explanation is not limited to the court’s statements at the moment
it imposes sentence,” but instead, “we look at the full context” surrounding the explanation.
United States v. Nance, 957 F.3d 204, 213 (4th Cir.), cert. denied, No. 20-5825, 2020 WL
6385951 (U.S. Nov. 2, 2020). “Absent such contextual indicators, however, we have
declined to guess at the district court’s rationale, searching the record for statements . . . or
for any other clues that might explain a sentence.” United States v. Provance, 944 F.3d
213, 218 (4th Cir. 2019) (internal quotation marks omitted). “Failure to provide such an
explanation constitutes procedural error.” United States v. McMiller, 954 F.3d 670, 676
(4th Cir. 2020).
“A criminal defendant who wishes a court of appeals to consider a claim that a ruling
of a trial court was in error must first make his objection known to the trial-court judge.”
Holguin-Hernandez v. United States, 140 S. Ct. 762, 764 (2020). A party may preserve a
claim of error by informing the court of the action the party wishes the court to take, or the
party’s objection to the court’s action and the grounds for that objection. Id. (citing Fed.
R. Crim. P. 51(b)). “By drawing arguments from [18 U.S.C.] § 3553 for a sentence
different than the one ultimately imposed, an aggrieved party sufficiently alerts the district
court of its responsibility to render an individualized explanation addressing those
arguments, and thus preserves its claim.” United States v. Lynn, 592 F.3d 572, 578 (4th
4

A4

USCA4 Appeal: 20-4143

Doc: 38

Filed: 02/05/2021

Pg: 5 of 6

Cir. 2010). “[I]f the appellant lodged his objection to the adequacy of the district court’s
sentencing procedure for the first time on appeal,” we review the claim for plain error. Id.
at 578.
To establish plain error, a defendant must show (1) error, (2) that was clear or
obvious, and (3) the error affected his substantial rights. United States v. Fowler, 948 F.3d
663, 669 (4th Cir. 2020) (citation omitted). If he does so, we will correct the error only if
it seriously affects the fairness, integrity, or public reputation of judicial proceedings. Id.
(quotation marks and citation omitted). “An error affects a defendant’s substantial rights
if the error ‘affected the outcome of the district court proceedings.’” United States v.
Hargrove, 625 F.3d 170, 184 (4th Cir. 2010) (citation omitted).

“To satisfy this

requirement in the sentencing context, the defendant must show that he would have
received a lower sentence had the error not occurred.” Id. at 184-85 (internal quotation
marks omitted).
The district court determined that Dudley’s advisory Guidelines range was life
imprisonment. As Dudley concedes on appeal, he asked the court to vary downward and
impose a sentence between 220 months and 360 months of imprisonment; and the court
granted his request.

We therefore agree with the Government that his procedural

sentencing claim is reviewed for plain error. We further conclude that, even assuming the
court plainly erred in not adequately explaining his sentence, Dudley fails to show that his
substantial rights were affected by the error.

5

A5

USCA4 Appeal: 20-4143

Doc: 38

Filed: 02/05/2021

Pg: 6 of 6

Accordingly, we affirm the criminal judgment. We dispense with oral argument
because the facts and legal contentions are adequately presented in the materials before this
court and argument would not aid the decisional process.
AFFIRMED

6

A6

